<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-158]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-158

 
 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2014

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             APRIL 17, 2013

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
80-572                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
         Mary Beth Schultz, Chief Counsel for Homeland Security
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
         Troy H. Cribb, Chief Counsel for Governmental Affairs
                     Susan B. Corbin, DHS Detailee
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
        Daniel P. Lips, Minority Director for Homeland Security
                     Trina D. Shiffman, Chief Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     5
    Senator Johnson..............................................    15
    Senator Ayotte...............................................    17
    Senator Baldwin..............................................    19
    Senator Begich...............................................    21
    Senator Paul.................................................    24
    Senator McCain...............................................    25
    Senator McCaskill............................................    28
Prepared statements:
    Senator Carper...............................................    39
    Senator Coburn...............................................    42

                               WITNESSES
                       Wednesday, April 17, 2013

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     6
    Prepared statement...........................................    44
    Responses to post-hearing questions for the Record...........    67


 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2014

                              ----------                              


                       WEDNESDAY, APRIL 17, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Pryor, McCaskill, Begich, 
Baldwin, Heitkamp, Coburn, McCain, Johnson, Paul, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning. This hearing will come to 
order.
    Our thanks to Secretary Napolitano for joining us to 
discuss the President's budget request for the Department of 
Homeland Security (DHS) for fiscal year (FY) 2014. Before we 
start, I want to take just a moment on behalf of Dr. Coburn and 
my colleagues to offer our condolences to the victims of the 
tragic Boston Marathon terrorist attacks and to their families. 
I am going to ask that we start this hearing with a moment of 
silence to remember the victims and their families in our 
prayers. [Moment of silence.]
    Thank you.
    Let me also take a moment just to thank our first 
responders and many brave bystanders who selflessly rushed into 
the chaotic scene to care for those who had been injured, in 
some cases killed, and the law enforcement personnel at the 
Federal, State, and local levels who continue to investigate 
this tragedy. We are carefully monitoring this situation and 
will continue to do so. In the end, we will get to the bottom 
of this incident and bring those responsible to justice. Every 
American has a role in these efforts, and we can do so by 
embracing one of the Secretary's main messages, and that is, if 
you see something, say something. Every time we go into an 
airport or a train station, we are reminded of those words. If 
we see something, say something. In this case, whoever is 
responsible will be brought to justice, not just because of the 
efforts of Homeland Security, the Federal Bureau of 
Investigations (FBI), or State and local law enforcement 
(SLLE), but because of the help of hundreds, thousands of 
people who saw something and are going to try to say something 
with all of us.
    In the Navy we say, ``All hands on deck.'' This is all 
hands on deck, and everybody who wants to help, this is a good 
way for everybody to be part of the solution.
    Unfortunately, such tragic acts of terror serve as a 
reminder of the critically important mission given to the 
Department of Homeland Security. Crafting a budget for an 
agency this complex and important is never easy and is 
particularly challenging in this fiscal environment.
    The Administration's $39 billion budget request makes some 
very tough choices. It cuts the Department's budget by roughly 
2 percent below 2012 levels, but it is at least consistent with 
what Congress appropriated in 2013 for the Department, before 
sequestration cuts were applied. Still, the level of funding in 
this proposed 2014 budget is lower than what Congress 
appropriated in 2009.
    Stepping back and thinking about all of the challenges that 
our country and this Department have faced since 2009--the 
Christmas Day bomber, the Times Square bomber, the Yemen Cargo 
Bomb plot, Hurricane Sandy, the ever-changing and ever-growing 
cyber threat, and now the Boston attack--it is easy to become 
concerned with this budget request. That said, we are facing 
extremely difficult budgetary times and sacrifices must be 
made.
    And while I recognize some important missions may not 
receive all of the funding they or we would want in a perfect 
world, all departments and agencies in government must share in 
the sacrifices to some extent required to rein in our deficit. 
Our Secretary seems to have taken this message to heart, 
identifying $1.3 billion in cost savings this year and more 
than $4 billion since 2009, and continues to move to a risk-
based approach in an effort to save more money, but to do so in 
a smart way.
    I am happy to see that this budget proposes a much needed 
increase for cybersecurity which will help the Department 
fulfill its significant cyber responsibilities. Of course, 
additional resources alone are not going to get the job done--
that is why passing comprehensive bipartisan legislation to 
complement the President's Executive Order (EO) and address the 
cyber threat is one of our highest priorities.
    I also welcomed the Administration's continued commitment 
to securing our Nation's borders by maintaining staffing for 
the Border Patrol at its current historic levels and adding 
more than 3,400 Customs and Border Protection (CBP) officers to 
staff our ports of entry (POE). These critical resources are 
paid for, in part, with modest fee increases.
    During my recent trips to our borders in Arizona, where 
Secretary Napolitano, Senator McCain, and Congressman McCaul 
joined me and I have been up to Michigan with Senator Levin 
recently. I heard from local mayors, business leaders, and 
frontline officers, I heard them say that they need more help 
at our ports of entry. And I anticipate we will hear many more 
of the same comments when I visit in Texas later this month, I 
think April 30 and May 1.
    I just want to say to my colleagues, for anyone who is 
interested in spending a day and a half going down to the 
border in Texas, late afternoon April 30 and all day on May 1, 
that I would welcome you to join us.
    I believe that if something is worth having, it is worth 
paying for, and it is worth it to Americans to better 
facilitate trade and travel at our ports of entry, and we need 
to pay for it. That is why I agree with the President's 
proposal to use some modest fee increases to pay for more 
Customs and Border Protection officers. These efforts will 
build on the tremendous progress we have made in securing the 
border over the past decade. I look forward to reviewing the 
immigration bill introduced this morning, I think at quarter of 
2, by Senators McCain, Durbin, Schumer, and others of our 
colleagues to make sure that the bill makes smart investments 
in border security, focusing on deploying force multipliers 
that can help our frontline agents be more effective and 
efficient.
    Last, I was encouraged to see the increase in funding for 
the consolidation of the Department's Headquarters at the St. 
Elizabeths Campus which I visited earlier this week. The $105 
million in this request, in conjunction with the money that the 
General Services Administration (GSA) has requested, will yield 
real savings to taxpayers by allowing us to stop leasing 
buildings all over the D.C. metro area, dozens of buildings all 
over the D.C. metro area, and help the Department at the same 
time to improve management and to increase morale.
    Among the major departments in our Federal Government, the 
Department of Homeland Security has had and continues to have 
the lowest ranking morale. I think there is a reason for that, 
and one of the reasons is that they are scattered to the winds. 
They are not really a team, they are not really a unit. They 
need to be, as best we can, joined together at a central 
location, and we are going to try to do that. I know it is a 
tough, heavy lift, but it is one that we started, made huge 
investments--I think $1 billion investment in infrastructure. 
If we stop now, we have huge investments in infrastructure and 
not much there to connect the infrastructure to. I do not think 
that is a very smart investment.
    With that said, I am concerned that this budget's 
significant cuts to several key homeland priorities may be 
penny-wise and pound-foolish. The cuts to management, for 
instance, are shortsighted and will, I fear, undermine the 
progress the Department has made in this area. Last year for 
the first time, the Department of Homeland Security earned, as 
you know, a qualified audit opinion on all of its fiscal year 
2011 financial statements. And in its latest high-risk report, 
the Government Accountability Office (GAO) confirmed that there 
has been considerable progress at the Department in integrating 
its components and in strengthening its management. We are 
looking for a clean audit in 2014 and applaud the progress that 
has been made. We cannot lose this momentum. Better management 
will yield better results and stewardship of taxpayer dollars.
    I am also concerned by the proposed reduction in frontline 
personnel at Immigration and Customs Enforcement (ICE). As we 
work to reform our immigration laws, I believe that ICE will 
play a critical role. I think we all do. These reductions there 
could undermine our efforts to implement new reforms. I am sure 
we will revisit this during the course of the hearing. We also 
need to do a better job of managing our detention efforts to 
ensure that criminals are kept off the streets. While 
acknowledging that the sequestration Congress launched is 
partly to blame, I was disappointed with the management 
failures that led ICE to release a number of felons among the 
more than 2,000 detainees 2 months ago because of budget 
constraints.
    Another area of concern is the $714 million request to fund 
the construction of the National Bio and Agro-Defense Facility 
(NBAF) in Kansas. We have talked a little bit about this. I am 
sure we will talk about it some more today. And I understand 
the importance of studying animal diseases--we all do--but I 
hope we can avoid providing full funding--I think seven-
hundred-some million dollars in full funding--in 2014 alone for 
a multi-year construction project. If there is some way to 
build it in logical segments so we can do it over a 2- or 3-
year period and, thus, avoid taking away resources from other 
agencies like ICE, the Coast Guard, and the Federal Emergency 
Management Agency (FEMA) next year, maybe even management, some 
of the management monies that we need for the Department.
    And, finally, I am concerned by proposed cuts in the 
support the Department of Homeland Security provides to State 
and local governments and first responders through Homeland 
Security Grants, exercises, and training. As we saw clearly 
this week, State and local officials are the ones who will 
inevitably be on the front lines responding to terrorist 
attacks. My friend Dr. Coburn always reminds us that we need to 
be risk based and that we need to keep that in mind, 
particularly as we consider these grants to our State and local 
colleagues.
    While acknowledging that our approach must be risk based, I 
want to ensure that the Department is able to continue to help 
State and local responders with the plans, training, and 
equipment they need to respond effectively, as they did so 
admirably in Boston this week.
    The elephant in the room, of course, is sequestration. If 
implemented, it would take another 5 percent off the 
Department's already limited budget. These cuts, I fear, would 
interfere with the Department's operations and management and 
with its ability to fulfill its missions. We must find a better 
way to deal with our budget crisis. We need a comprehensive 
plan to rein in our Federal debt and deficit.
    And, finally, as my colleagues have heard me say any number 
of times, I favor a ``grand bargain''--the man sitting to my 
right here has worked very hard to help craft one a couple of 
years ago, but a grand bargain that does three things: First, 
raises revenues closer to levels that existed in the last 4 
years of the Clinton Administration, when we actually had four 
balanced budgets in a row; second, to enact entitlement reform 
that saves money, avoids savaging older people and poor people, 
and actually saves these programs for future generations; and, 
finally, the third element, we need to look in every nook and 
cranny of the Federal Government and ask this question: How can 
we get a better result for less money in everything that we do?
    I believe now is the time to make this grand bargain. The 
cost of the failure to do so is just too high for all of us.
    Now let me turn to Dr. Coburn for any comments he would 
like to make at this time. Welcome. Thank you.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. Madam Secretary, welcome. I 
appreciate your service. We have a lot to go through today.
    I am one of the few Members of Congress who has supported 
your idea of consolidating our grant programs, and I commend 
you on that. You will have my help in working toward that, with 
the caveat that we actually do a much better job in terms of 
putting metrics on those grants and that they are truly risk 
based. So I will be there to help you do that. There are a lot 
of areas where we are not effective with Homeland Security 
Grants today.
    I also would comment, if you read the Constitution and you 
look at the enumerated powers, a lot of what we have done is 
not our role. It is the State and locals' role. And what we 
have done is we have created some learned dependency out there 
that individual States and communities are going to have to 
free themselves of, because the budget parameters are not going 
to allow us to be the source for what they need.
    On top of that, the point is we cannot spend enough money 
to give us a 100 percent guarantee of security.
    The other thing we cannot do is we cannot get security to 
the level that we are going to compromise our liberty. So we 
have those two tensions that are going forward.
    I have to say, I do trust you in terms of your vision of 
trying to do the best to balance those tensions. And I look 
forward to working with you so that we can move more of these 
dollars to risk-based prevention rather than parochial based. 
Most of the people in this room do not know the fights that we 
have at markups when parochial displaces the primacy of risk-
based needs. There is nothing wrong with fighting for your 
State, but there is plenty wrong when you have fought for your 
State and resources which could have been used to prevent 
something and they are not available at the highest risk 
places.
    The last point I would make with this large budget, and I 
would tell my colleague, sequestration is going to stay. That 
level of funding is not going up. We are not going to go back 
on the pledge to the American people to trim down the size of 
the Federal Government. And one of the positive things that is 
coming out of sequestration is innovation, judgment, and making 
hard decisions. My wish would be that the President would ask 
us for more flexibility. He has refused to do so, but I think 
eventually we are going to see that request.
    My hope is that Congress is going to give you more 
flexibility so that can actually make the judgments that we are 
paying you to make.
    With all of that comes the very thing that every family in 
this country is doing: They are doing more with less, instead 
of less with more. And the No. 1 charge to your agency is to do 
more with less. And that is across this government. It is going 
to have to happen. It is the only way we get out and create a 
future for the generations that follow us. So I look forward to 
your testimony. I am a supporter when it comes to reforming the 
things that you need to actually do your job, and I will be 
there to help you.
    Thank you.
    Chairman Carper. Thanks, Dr. Coburn.
    Before I introduce Secretary Napolitano, I want to thank 
Senator Heitkamp, Senator Ayotte, Senator Johnson, and Senator 
Baldwin for being here. Senator Baldwin, a couple of refugees 
from Madison, Wisconsin, are out in the audience there, George 
and Donna. Would you all raise your hands and say hello to one 
of your two Senators right there? They came to say hello. They 
are former Delawareans. We are happy to see them.
    I may interrupt this hearing for a minute or two. Once we 
have, I think, nine people here, that gives us a quorum to 
consider the nomination of Sylvia Mathews Burwell to be 
Director of the Office of Management and Budget (OMB).
    Secretary Napolitano, I want to again thank you and FBI 
Director Mueller for joining us last evening for a classified 
briefing in The Capitol on the Boston tragedy. We want to 
welcome you here today. As our Secretary, you have led the 
Department I think since 2009, and starting her second term, we 
are glad you signed on for a second hitch.
    Given the recent bombings in Boston, we appreciate your 
efforts all the more, and those of the team that you lead, and 
look forward to this time today to talk with you about the 
Department's fiscal year 2014 budget request.
    We also want to offer any time if you want at the beginning 
for any updates you want to provide for the ongoing efforts in 
Boston, and you are now recognized to do that and for your 
statement. Thank you. Welcome.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Chairman Carper and 
Ranking Member Coburn and Members of the Committee, for the 
opportunity to discuss the President's fiscal year 2014 budget 
request for the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Napolitano appears in the 
Appendix on page 44.
---------------------------------------------------------------------------
    Before I begin, as the Chairman acknowledged, I would like 
to say a few words about the attack in Boston. Our thoughts and 
our prayers remain with the victims and their families and with 
the city of Boston.
    DHS is, in fact, a big part of the Boston community. 
Hundreds of our men and women go to work in the city every day. 
And across the region they protect the traveling public. They 
secure critical infrastructure, they patrol ports and 
waterways. They help investigate crimes, enforce Federal laws, 
and support our State and local partners. So the attack 
directly affected DHS in many ways.
    I have personally been speaking with the Governor, the 
mayor, the police commissioner, members of the Massachusetts 
congressional delegation, and others, assuring them that we 
will do all we can to bring whoever is responsible for the 
attack to justice.
    As President Obama has said, the FBI is investigating this 
as an act of terrorism, and the full force of the Federal 
Government will support the response and the investigation.
    There is no current indication to suggest the attack was 
indicative of a broader plot, but out of an abundance of 
caution, we continue to keep in place enhanced security 
measures, both seen and unseen, in coordination with Federal, 
State, and local partners. We continue to urge the American 
public to remain vigilant and immediately report any signs of 
suspicious activity to local law enforcement.
    We thank the people of Boston for their response. We stand 
in solidarity with them and with everyone who has been making 
sure that the response, the recovery, and the investigation 
continue full force.
    Beyond that, Mr. Chairman, I think I should not say 
anything in an unclassified setting except to reassure the 
Committee that DHS is putting its full force into providing the 
FBI with any and all assistance it requires in addition to 
doing a number of other things with the city of Boston.
    Chairman Carper. Thank you.
    Secretary Napolitano. As you know, this year marks the 10th 
anniversary of the creation of DHS, the largest reorganization 
of the U.S. Government since the formation of the Department of 
Defense (DOD). After 10 years of effort, DHS has transformed 22 
legacy agencies into a single integrated Department, building a 
strengthened homeland security enterprise and a more secure 
America better equipped to confront the range of threats that 
we face.
    The President's fiscal year 2014 budget for DHS allows us 
to build on our progress over the past 10 years by preserving 
core frontline operational priorities. At the same time, given 
the current fiscal environment, this is the third straight year 
that our budget request reflects a reduction from the previous 
year.
    Specifically, the budget request is 2.2 percent, or more 
than $800 million, below the fiscal year 2013 enacted budget. 
While our mission has not changed and we continue to face 
evolving threats, we have become more strategic in how we use 
these resources, focusing on a risk-based approach. This is 
coupled with an unprecedented commitment to fiscal discipline 
which has led to over $4 billion in cost avoidances and 
reductions over the past 4 years through a process we call 
Efficiency Review (ER).
    Before I get to the nuts and bolts of the budget, I want to 
pause to talk a little bit about sequestration because----
    Chairman Carper. Excuse me. Could I ask you to pause just 
for a little longer? We have nine Senators here.
    Secretary Napolitano. This is a good time to break.
    Chairman Carper. If you could just pause for a moment.
    Secretary Napolitano. OK. I will go ahead and suspend here.
    Chairman Carper. Senator Heitkamp is going to preside over 
the Senate in about 10 minutes, so we want to get this done.
    [Whereupon, at 10:24 a.m., the Committee proceeded to other 
business and reconvened at 10:26 a.m.]
    Chairman Carper. We look forward to the rest of your 
testimony. Thank you.
    Secretary Napolitano. Let me, if I might, resume with a 
quick discussion of sequestration, which has significant 
effects for the Department, more than $3 billion in cuts across 
DHS over 6 months.
    Now, the recent full-year appropriations bill enabled DHS 
to mitigate to some degree the projected sequester impacts 
under the continuing resolution (CR) on our operations and 
workforce. But there is no doubt that the remaining cuts will 
affect operations in the short and long term.
    Sustained cuts at these sequester levels will result in 
reduced operational capacity, breached staffing floors, and 
economic impacts to the private sector through reduced and 
cancelled contracts. Nonetheless, we will continue to do 
everything we can to minimize the impacts on our core mission 
and our employees, consistent with the operational priorities 
in the 2014 budget, which I would like now to highlight.
    First, to prevent terrorism and enhance security, the 
fiscal year 2014 budget continues to support risk-based 
security initiatives, including the Transportation Security 
Administration (TSA) Pre-Check, Global Entry, and other trusted 
traveler programs. As a result, we expect one in four travelers 
to receive some form of expedited screening domestically by the 
end of the year. The budget supports Administration efforts to 
secure maritime cargo and the global supply chain by 
strengthening efforts to interdict threats at the earliest 
point possible.
    We continue our strong support for State and local partners 
through training, fusion centers, and information sharing on a 
wide range of critical homeland security issues.
    We also fund cutting-edge research and development (R&D) to 
address evolving biological, radiological, and nuclear threats, 
including construction of the National Bio and Agro-Defense 
Facility.
    To secure and manage our borders, the budget continues the 
Administration's robust border security efforts while 
facilitating legitimate travel and trade. It sustains historic 
deployments of personnel along our borders as well as continued 
utilization of proven, effective surveillance technology along 
the highest-trafficked areas of the southwest border.
    To expedite travel and trade while reducing wait times at 
the ports of entry, the budget requests an additional 3,500 
port officers--1,600 paid for by appropriation and the 
remainder by an increase to the immigration user fees that have 
not been adjusted since 2001.
    To secure maritime borders, the budget invests in 
recapitalization of Coast Guard assets, including the seventh 
National Security Cutter (NSC) and Fast Response Cutters 
(FRCs).
    The budget also continues the Department's focus on smart 
and effective enforcement of our country's immigration laws. It 
supports the Administration's unprecedented effort to more 
effectively focus the enforcement system on public safety 
threats, border security, and the integrity of the immigration 
system through initiatives such as Deferred Action for 
Childhood Arrivals and greater use of prosecutorial discretion.
    At the same time, the budget makes significant reductions 
to inefficient programs like 287(g) task force agreements, 
while supporting more cost-effective initiatives like the 
nationwide implementation of Secure Communities.
    The budget invests in monitoring and compliance, promoting 
adherence to worksite-related laws, Form I-9 inspections, and 
enhancements to the E-Verify program, while continuing to 
support alternatives to detention, detention reform, and 
immigrant integration efforts.
    Comprehensive immigration reform will help us continue to 
build on these efforts and strengthen border security by 
enabling DHS to further focus existing resources on criminals, 
on human smugglers and traffickers, and national security 
threats.
    Let me pause here to say that we are greatly encouraged by 
the bipartisan bill that was introduced early this morning.
    Next, to safeguard and secure cyberspace, this budget makes 
significant investments to strengthen cybersecurity, including 
funds to secure our Nation's information and financial systems 
and defend against cyber threats to private sector and Federal 
systems, the Nation's critical infrastructure, and our economy. 
It supports the President's Executive Order on improving 
critical infrastructure cybersecurity and the Presidential 
Policy Directive on critical infrastructure security and 
resilience. And it expedites the deployment of EINSTEIN 3 to 
prevent and detect intrusions on government computer systems.
    Finally, to ensure continued resilience to disasters, the 
President's budget focuses on a whole-of-community approach to 
emergency management, includes resources for the Disaster 
Relief Fund (DRF), to support Presidentially declared disasters 
or emergencies. The Administration is again proposing the 
consolidation of 18 grant programs into one National 
Preparedness Grant Program to create a robust national response 
capacity while reducing administrative overhead. This 
competitive, risk-based program will use a comprehensive 
process to assess gaps, identify and prioritize deployable 
capabilities, put funding to work quickly, and require grantees 
to regularly report on their progress.
    It is precisely this kind of funding that has enhanced 
preparedness and response capabilities in cities like Boston. 
Since 2002, the Boston urban area has received nearly $370 
million in Federal grant funding, which has been used to equip 
and train tactical and specialized response teams specifically 
in improvised explosive device (IED) detection, prevention, 
response, and recovery.
    Within the last year, for example, the Metro Boston 
Homeland Security Region used grant funding to provide 
integrated training to improve their speed and efficiency in 
response to IED threats.
    Importantly, grants also have supported increased 
coordination, particularly with respect to joint exercises and 
training.
    FEMA has supported 12 exercises involving the city of 
Boston, including 8 over the past 3 years, on topics that 
include biological attack, hazardous materials, and other types 
of attack.
    FEMA also has provided more than 5,500 Boston area 
responders with chemical, biological, and mass casualty 
response training. And Homeland Security Grants continue to 
support joint training and exercises among law enforcement and 
Fire Service that are part of the Massachusetts Joint Hazards 
Assessment Team.
    These investments have proven their value time and again, 
and they greatly aided the response 2 days ago. We should 
continue this support.
    In conclusion, the fiscal year 2014 budget proposal 
reflects this Administration's strong commitment to protecting 
the homeland and the American people through the effective and 
efficient use of DHS resources.
    Chairman Carper, Ranking Member Coburn, Members of the 
Committee, thank you for the opportunity to testify, and I look 
forward to your questions.
    Chairman Carper. Thank you. I appreciate very much your 
presence today and your presentation.
    As I said earlier, at 1:45 or so this morning, eight of our 
colleagues--four Democrats, four Republicans--together 
introduced comprehensive immigration reform legislation. This 
Committee has a responsibility, I think unique in the Senate, 
to try to ask and answer the question: Are our borders more 
secure? And for those of you who have been down along the 
borders and had a chance to go not just maybe this or last year 
but in years past, I believe they are significantly more 
secure.
    I like to say everything I do, I know I can do better. The 
same is true of all of us. The same is true of all Federal 
programs. Can we make the borders more secure? Yes, we can. Can 
we do that in a budget-constrained world? Yes, we can. And one 
of the things we need to do is to figure out what the force 
multipliers are that we can spend some money on to actually 
increase the effectiveness of our security.
    When you were good enough to come and join me for a day 
down in your State, the State that you led for all those years 
as Governor, and Senator McCain and Congressman McCaul a day 
earlier, one of the things that I learned, one of my takeaways 
is that there are a number of investments that we can make, and 
I would say they are technology based. But we have four joint 
aircraft. On any given day, we might have two of them flying. 
And during the course of a week, 5 days we will have drones in 
the air, for instance, about 16 hours. That means there are 2 
days they are not flying, 2 days of a week that they are not in 
operation and about 8 hours of every day that they are not in 
operation. If the winds are greater than 15 knots, they cannot 
fly. So we have to do something about that.
    One of the things we can do is to better resource the drone 
operation. Two, they carry the Vehicle and Dismount 
Exploitation Radar (VADER)--V-A-D-E-R--radar system to detect 
people moving from very high altitudes in bad weather, at 
nighttime, approaching the border, crossing the border, 
attempting to cross the border. It is a remarkable tool for us 
to use.
    We have one VADER system for four drones. It is a borrowed 
system I think from a company, not from the Department of 
Defense. And one of the things I would hope that we can do is 
find a way to--and our friends, our eight colleagues who have 
introduced the immigration reform bill have actually proposed 
ways to pay for some additional security measures on the 
border. I think a lot of them are user fee based, but we want 
to look very closely at those and work with our colleagues. I 
hope, to see how many of them we can do, can afford, and how we 
might invest that money in technologies that will enable our 
ground troops or ground forces to be more effective.
    There is an aircraft called the C-206. I think it is a 
Cessna 206, a twin-engine airplane--very cost effective to 
operate, a lot more so than the drones--that can be very 
helpful in performing similar missions. They can fly when the 
winds are greater than 15 knots and do so at a smaller price.
    We have, I think, a recommendation in the budget with 
respect to dirigibles, and move some of the--I think they are 
called Tethered Aerostat Radar System (TARS). That is the 
acronym.
    Secretary Napolitano. Yes.
    Chairman Carper. But they are lighter-than-air components 
that can carry a pod, a surveillance pod that can go up in the 
air, can be there for a day, a week, long periods of time, and 
transmit information back to forces on the ground to tell us 
about movement approaching the border or crossing the border.
    There are land-based radar systems that are already 
deployed on parts of the border. We have other parts of the 
border maybe to the west, the western part of Arizona, where 
those kinds of investments would seem to make a lot more sense 
and enable us to better direct the resources we have on the 
ground and allocate those forces. Those are the kinds of things 
that we want to do more of.
    I know in the President's budget there is language to move 
the lighter-than-air systems out of the Department of Defense, 
allocate those to Homeland Security. That is good. But there is 
more that we can do from there, and we have to pay for it as 
well.
    Do you want to comment on any of that, anything that I just 
mentioned that you think is more appropriate, more necessary, 
more helpful than others?
    Secretary Napolitano. Well, I think if you are talking 
about a force multiplier to the manpower on the border, which 
is at record levels and the budget sustains that record level 
of manpower, so now you are talking about a force multiplier, 
technology is really the key. And you have to use different 
technologies in different parts of the border because the 
terrain is so different, the circumstances are different. San 
Diego is very different than the South Rio Grande Valley. The 
South Rio Grande Valley is very different from the area between 
Nogales and Douglas.
    So what we have done is taken the nine Border Patrol 
sectors along that Southwest Border and have constructed--and 
this is using the Border Patrol experts themselves. They know 
best what they need in some respects. So develop nine different 
technology plans that are particular to each area of the 
border. And we are moving to match our funding request to the 
technology adds that we need.
    We have stopped building a one-size-fits-all integrated 
towers project along the entire border. We are going to use 
that in Arizona but not along the entire expanse of the border. 
It turned out to be very expensive and not operational in some 
of the physical circumstances that we have, and in exchange 
moved to more off-the-shelf technologies, technologies that may 
have been used in theater, other types of things that we can 
acquire.
    So technology is a force multiplier, and then moving on to 
comprehensive immigration reform. Quite frankly, the two main 
drivers of illegal migration are work and the other is we have 
made it so difficult to immigrate legally because our visa 
system has become so sclerotic that becomes an incentive to try 
to get across to rejoin your family and the like.
    If we deal with employers with E-Verify, if we deal with 
the visa system, then we can more carefully focus our resources 
at the border on the narco traffickers and the human smugglers 
and the like, who we would like to focus our law enforcement 
resources on.
    Chairman Carper. OK. Thanks very much.
    Let me turn to management. I am impressed with the 
improvements in management of the Department that brought 
together all these diverse components, I do not know, 22 or so, 
as I recall, kind of mushed together into the Department of 
Homeland Security. But they are spread all over the place, and 
it makes it, not impossible, but difficult to operate as a team 
when you are just scattered to the winds. The effort was 
launched not in this Administration but in previous 
Administrations to begin to consolidate those efforts into an 
area in Washington, DC, a historic area that has great 
potential called St. Elizabeths.
    Dr. Coburn and I have had a chance to visit the site and 
try to understand the rationale behind doing it. I think it 
makes sense. We spend huge amounts of money leasing buildings, 
frankly, throughout the government, and we would be better off 
just building them or letting an agency buy and own a property. 
But the problem is that when you do that, it scores as a 1-
year, so if you are going to use a building for 50 years, you 
have to score the entire cost by the Congressional Budget 
Office (CBO) at the front end. This is a way to actually save 
some money and at the same time consolidate.
    Talk to us about why this is important for management 
purposes. Why is this important for morale? I talked earlier 
about the low morale at the Department despite the efforts of 
leadership. Talk to us about how this would help on the 
management side.
    Secretary Napolitano. Well, I think, first of all, the St. 
E's campus would actually be the first Federal investment of 
its kind on the other side of the Anacostia River and could be 
a real economic development opportunity in that area, much as 
the Pentagon was years ago. But as you know, we are in over 50 
facilities in the National Capital Region. When I want to have 
a meeting of component heads, I have to bring in the 
Administrator of TSA from over here, the Customs Commissioner 
from over there, the Secret Service from downtown, et cetera. 
Much better to have one campus that facilitates the management, 
information sharing, the kinds of integrated approach to 
homeland security that the Department was created for.
    I am not normally one to come in and say, ``Hey, we need a 
building,'' given the budget constraints. But it has already 
started. The investment--some of the fixed costs have already 
been incurred. The Coast Guard is moving and the budget 
supports their move before Thanksgiving. I think it is 
appropriate, timely, and in the long term more cost effective 
to actually have a real headquarters.
    Chairman Carper. OK. The last thing, turning to Dr. Coburn, 
he and I both believe that there is a great opportunity for 
this full Committee to work closely with GAO and to use that as 
a tool, use GAO's high-risk list as a tool to get better 
results for less money in everything we do. We were very much 
impressed when your Deputy Secretary was here a couple of weeks 
ago, Jane Holl Lute, and she is leaving, I understand, and we 
will miss her. She has been a great public servant. But great 
improvement has been made in terms of management of this 
Department under three Secretaries now. We want to make sure 
that continues, and we will work with you toward that end. Dr. 
Coburn.
    Senator Coburn. Thank you. Just a little business.
    I sent you a letter yesterday on drones. I think you all 
have received it in terms of your privacy situation and the 
fact that really has not been addressed, what the law would 
require, and I just would like your commitment that you will 
get back to me on that.
    Secretary Napolitano. Sure, yes. Absolutely.
    Senator Coburn. I appreciate it.
    Let us talk about FEMA preparedness grants for a minute. 
How do you know $1 billion more is what is needed and not $500 
million or $2 billion?
    Secretary Napolitano. Well, I think you have to--first of 
all, you ask. Second, you survey. You compare. You identify 
gaps. And what we would like to move to, Senator, is a system 
where not every location has 100 percent of everything, that we 
have a more regional approach where certain capabilities are 
concerned. Not everybody needs HazMat teams or certain types of 
HazMat teams. Not everyone needs urban search and rescue, if 
they are within the same area and can easily get to a site 
should there be an event. So we look at all sorts of things in 
determining what is the appropriate level.
    Senator Coburn. But how did you come up with $1 billion?
    Secretary Napolitano. Going through exactly what I said: 
Looking at what the gaps are, what it would take, the cost to 
fill that gap. Let us say, for example, that you need a certain 
number of personnel who have gone through a certain number of 
trainings on incident response. Well, you can kind of cost out, 
well, how much does that training cost per individual, and in 
what period of time can that cost be incurred?
    So that is the sort of nuts and bolts that goes into 
constituting a number. It is inductive, not deductive. In other 
words, you do not start with $1 billion and say, OK, how do I 
fill it up? It is more what do you need and what constitutes 
that.
    Senator Coburn. You have $5.2 billion I think right now in 
unspent grant money.
    Secretary Napolitano. Yes.
    Senator Coburn. How much of that is obligated?
    Secretary Napolitano. I would say 80 percent plus.
    Senator Coburn. So you have $1 billion that is unobligated 
right now, and we are asking for an increase of $1 billion. And 
when you talked to us last year, one of the things you noted 
was that you described the purpose of getting the grants out 
was fiscal stimulus, economic growth, and job creation.
    Isn't the purpose of these grants really to enhance 
preparedness? And shouldn't we be making the choice based on 
where is our greatest risk, where is our greatest weakness? 
Shouldn't we be sending the money there regardless of what it 
does in terms of job creation and fiscal stimulus?
    Secretary Napolitano. Yes, and really one of our thoughts 
in putting some time limits on grant drawdown was that if these 
were things needed for emergency response, for homeland 
security, they ought to go out quicker rather than later.
    Now, some of the grants do take more time. I will give you 
a concrete example. We have been supporting New York City in 
the development of a computer system which, interlinked with 
cameras, allows it to have greater surveillance over certain 
areas of the city and the bridges. It turns out it takes longer 
than 2 years to develop such a program.
    So what we recommend is we put some time limits on these 
grant drawdowns, subject to a waiver in appropriate 
circumstances.
    Senator Coburn. OK. Last year, for the first time, you 
required States to complete their own threat and hazard 
identification and risk assessments as part of the grant 
process. How good are they? What are you doing to followup on 
the accuracy of those? And really my further question, my big 
criticism of a lot of FEMA grants and the grants coming out of 
your Department is we are not measuring a metric at the end of 
the grant to see if we accomplished what we said we were going 
to accomplish. And, really my question is more general. What 
are you going to institute so that the American taxpayer knows 
that when a grant goes out of FEMA or Homeland Security that it 
actually accomplished something that decreased risk or 
increased preparedness? Because right now, quite frankly, you 
do not know the answer to that. In a general way, what you can 
assess here is the quality of what we got out of the grant 
money we have. What are you doing to change that?
    Secretary Napolitano. Right. We have been really changing 
grant guidance and oversight over the past years. I think you 
are right. I think initial grants, particularly with the speed 
the Department was stood up, and these grant programs, a lot of 
them were basically formula grants based on population and what 
have you. It is now time--we are at the maturation level--where 
we should say, look, these should be risk-based, we should 
identify the risk area, measure the benefits that we get out of 
the risks, do everything we can to get the money out as rapidly 
as possible, as well spent as possible. But the way it is now, 
Senator, we have grant programs from all over the place, and it 
does limit our ability to really make those tough judgments.
    Senator Coburn. So this proposal to consolidate these, tell 
me about the efficiencies and also the accuracy as well as the 
performance that you hope to achieve by consolidating these 
grant programs.
    Secretary Napolitano. Well, I think, first of all, the 
threat and hazard identification and risk assessment (THIRA), 
becomes a key document. I think they are of varying quality as 
they have come in. We will work with the States that we think 
need help to increase their capacity. But as we move through 
this process, I think what you will see is administrative 
savings. First of all, States do not have to pay grant writers 
and grant administrators, and we can have one more integrated 
and unified set of reviewers and auditors.
    So I think anytime you say, look, we are going to take 18 
programs and meld them into one, you are going to get 
efficiencies in costs. I think you will get a more unified 
approach to how the grant money should be given and how they 
should be reviewed. And that is what we are seeking to do.
    Senator Coburn. All right. Would you agree with me that the 
per capita damage indicator needs to be modified in terms of 
FEMA grants?
    Secretary Napolitano. You mean in terms of--yes.
    Senator Coburn. What qualifies.
    Secretary Napolitano. Yes, in terms of what----
    Senator Coburn. It is a real disadvantage for the large 
States who have a significant event, and it is a real advantage 
for the small States that have the same amount of damage. One 
qualifies for FEMA grants, the other does not qualify at all. 
And so would you commit to work with us through your FEMA 
Director to try to get where we can build a consensus in 
Congress. How do we actually measure this better? Oklahoma had 
22 FEMA grants last year. I am thankful that the Federal 
Government is helping Oklahoma out. But in a lot of those, we 
were not overwhelmed, and we could have taken and dealt with 
it. And some States that may be in much worse budget shape than 
we are had twice as much but got no help from the Federal 
Government on like-minded events.
    So I would just like a commitment that you all will help us 
figure this out so that it is more equitable, one; and, two, 
when we are actually there to help a problem, that we help 
those that have the biggest problem, not the ones that qualify 
the easiest for the grants.
    Secretary Napolitano. Senator, I will pledge that. A great 
example of how the per capita issue works in strange and 
unfathomable ways is we had flooding on the upper Red River. 
One side of the river was North Dakota, the other side was 
Minnesota. North Dakota got grant funding, Minnesota did not.
    Senator Coburn. Right.
    Secretary Napolitano. The same flood.
    Senator Coburn. Yes, OK.
    In the third annual GAO duplication report--I guess I am 
over time. We will come back for a second round. That will let 
my colleagues----
    Chairman Carper. Very good. Thanks very much.
    Just in order of arrival, the next questioner will be 
Senator Johnson, followed by Senator Ayotte, Senator Baldwin, 
and Senator Begich, and the others to follow. Thank you.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    As long as we quit talking budget, you were talking about 
surpluses. You were talking about the revenue side of that 
equation. One of the reasons we had budget surpluses in the 
late 1990s is government spending was only a little over 18 
percent. And, of course, we hit a high of 25 percent. We are a 
little over 22 percent now, and we are on a trajectory to hit 
35 percent. So it was the level of spending, from my 
standpoint, that really balanced the budget, but I just want to 
get that one on the record.
    Madam Secretary, again, thank you for appearing here and, 
truthfully, thank you for your service. I do not envy your 
task, and you have a big job here, and we are all rooting for 
you.
    I would like to pick up a little bit on what Senator Coburn 
was talking about, the consolidated grant programs. Can you 
just speak to me about the type of pressure you feel, the 
parochial interests versus risk based? Do you find that is a 
real problem?
    Secretary Napolitano. Senator, I do not involve myself in 
some of the direct grant decisions, so that pressure gets a 
little diminished. But the real problem is that these grants, 
many of which came out of the 9/11 Act, were written at an 
earlier stage in our understanding of homeland security and 
what capacity we had around the country.
    Our understanding and our capacity is much different 10 
years later, and it is time to reform the grant programs to 
match that.
    Senator Johnson. OK. But from your standpoint, in terms of 
managing the budget, you do not feel that is a huge problem? Do 
you feel that your allocation of funds is appropriately 
designed toward risk-based assessment?
    Secretary Napolitano. No, I did not say that. I think we do 
not have the flexibility to incorporate risk-based analysis 
into enough of our grant programs. Too many of them have 
formulas, baselines, things of that sort, and what we really 
need to do is be evaluating where our needs are and how do we 
fill those needs.
    Senator Johnson. In your written testimony, I saw that the 
total grant program is about $2.1 billion. Is that correct or 
is that just for FEMA?
    Secretary Napolitano. Well, FEMA is 98 percent of our grant 
program.
    Senator Johnson. OK, so it is 2.1. How much do you think is 
misallocated based on parochial interests? Do you have a 
ballpark?
    Secretary Napolitano. That is a kind of ``Have you stopped 
beating your wife yet? '' question. There is no way to answer 
it without----
    Senator Johnson. OK. Is it significant or--I mean----
    Secretary Napolitano. All I will say is we have been doing 
our level best within the statutory requirements that we have 
to be as rigorous as we can on our grant guidance and grant 
awards.
    Senator Johnson. OK. Let me turn to a question I am getting 
all the time, and we certainly appreciate the information you 
have given us, but let us just kind of lay the rumors to rest. 
We hear reports that DHS is buying 1.6 billion rounds of 
ammunition. We contacted your office, and there is apparently a 
purchase order for 650 million rounds over 5 years. Is that the 
correct number? Can you just kind of speak to that? Because I 
know a lot of people are concerned about that.
    Secretary Napolitano. Yes. We are in no way buying up the 
ammunition of the country for any nefarious purpose. We have 
what we call ``strategic source contracting,'' where we can 
purchase at a certain per unit cost over time. We use about 150 
million rounds a year. We train almost all of Federal law 
enforcement plus a lot of State and locals at the Federal Law 
Enforcement Training Center (FLETC). By contracting this way, 
we save almost 80 percent in a per unit basis, so it is really 
just smart contracting and nothing more.
    Senator Johnson. Even the 150 million sounds like a lot, 
but can you just kind of break that down? How many people are 
trained? How many practice rounds are fired?
    Secretary Napolitano. Well, yes, I mean, CBP probably uses 
60, 65 million there. The Secret Service--many of our services 
require qualifying multiple times a year. FLETC probably uses 
another 20, 30 million rounds. We can give you the actual 
inventory.
    Senator Johnson. OK.
    Secretary Napolitano. We know where the rounds are used.
    Senator Johnson. I am actually just giving you the 
opportunity to try and dispel the rumors.
    Secretary Napolitano. Right. It is very strange to me how 
that rumor got started.
    Senator Coburn. If I can interrupt, we have actually made 
an inquiry, and they have been very good. The second inquiry is 
in the process of being processed by Homeland Security. We are 
going to have all that available for all the Members so they 
can answer this question.
    Senator Johnson. OK, great. That is great.
    Secretary Napolitano. Right. But to just be as firm as I 
can be the rumors are unsubstantiated and totally without 
merit.
    Senator Johnson. OK, great. Thank you.
    You mentioned the Secret Service. I have to admit, I was 
surprised during the May 2012 hearing in terms of the 
investigation there, and we have repeatedly requested to be 
able to see that Secret Service investigation report.
    First of all, let me ask you: Are you satisfied with the 
progress made in the investigation in Cartagena?
    Secretary Napolitano. I am satisfied with the progress 
made. I think some of your requests--my understanding is that 
you have been offered the opportunity to look at documents, but 
under the Privacy Act, we cannot provide you with those 
documents. If I am mistaken in that understanding, let me know.
    Senator Johnson. OK. I believe we are going to need the 
support of the Committee to try and get that. But let me just 
say that I am not satisfied with the progress, and I certainly 
have more questions that have not been answered. And it is a 
year later, so I would really like basically your commitment to 
work with our office to get those answers--or those questions 
answered. I think it is incredibly important for the Secret 
Service to have full credibility moving forward.
    Secretary Napolitano. Yes, the Secret Service is an 
incredible department and does incredible things, and they have 
their own interest in making sure that their reputation and 
professionalism is not continually tainted by this.
    Senator Johnson. OK. Well, thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you, Senator. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for your service. we appreciate how difficult it is 
at this time and appreciate what you are doing and those that 
serve underneath you.
    I wanted to ask about the State fusion centers, the 
national network of fusion centers. Can you tell me, in your 
view, how those fusion centers at the State level are working?
    I also am new to this Committee. I understand as well that 
you have what is called the ``Homeland Security Information 
Network (HSIN).'' Do those interact with each other? So what 
would you say are the strengths and weaknesses of the fusion 
centers? And how is the information sharing integrated from a 
State level, thinking about the post-9/11 world to the Federal 
level and you think about an event like Boston and all the 
various agencies that are involved? Can you help me with that?
    Secretary Napolitano. The concept behind the fusion centers 
was pretty straightforward, which is that one of our jobs is to 
get intelligence information distributed across the land into 
the hands of law enforcement officers and first responders who 
need it, and to get information back on all hazards, not 
specific to terrorism.
    Senator Ayotte. But it would include also terrorism-related 
events?
    Secretary Napolitano. Oh, that is the first priority.
    Senator Ayotte. That is the priority focus, yes.
    Secretary Napolitano. But it can include--like, for 
example, we used them during the H1N1 epidemic a couple years 
ago.
    Senator Ayotte. OK. Because we have one in Concord, so it 
was just beginning when I was Attorney General, and----
    Secretary Napolitano. Many of them are relatively new, but 
some have been in existence for several years now. The Boston 
one is a very strong one, and they have been really the center 
of how information from us and the Joint Terrorism Task Force 
(JTTF) that the FBI operates has been--we make sure we get it 
to all the locals who need it and get information back. So they 
have been going full bore since the bombs 2 days ago.
    But that is the concept, because you cannot share--I mean, 
you have 3,000 plus local law enforcement departments across 
the country, so being able to share the kind of information we 
want to be able to share, that many departments, it is very 
difficult and probably not productive. So the idea was, let us 
create some fusion centers, let us expand their area of 
responsibility beyond simply terrorism, but also other kinds of 
crimes, hazards that might occur, and really use them as a hub 
for info and analytics sharing.
    Senator Ayotte. How are they working?
    Secretary Napolitano. We have been assessing them all. 
There are 70. All but two are on the HSIN network, which is a 
classified network. I would say that a third are really good; a 
third are average, and we will be working with them; and a 
third are either new or need some real work.
    But I will tell you, from a long-term perspective on the 
info-sharing side of the house, to me building up that network 
of fusion centers is going to continue to be key.
    Senator Ayotte. In March, as I understand it, former 
Inspector General Richard Skinner testified before this 
Committee that the Department faced ongoing challenges in 
effectively sharing counterterrorism information, and one of 
the issues is the ability to complete the implementation of the 
Homeland Security Information Network.
    What is the status of that? And I understand, as you just 
described, that these fusion centers are part of that network, 
but also in the completion of the network so that we have 
information sharing, where are we with that? And what needs to 
be done?
    Secretary Napolitano. I think great progress has been made. 
As I mentioned, 68 of the 70 fusion centers are now on the HSIN 
network, and it is just a much more robust and viable network 
than it was when Mr. Skinner testified.
    Senator Ayotte. OK. Well, that is actually very good news.
    Also, thinking about as we move forward on the information-
sharing front, when you say a third of these fusion centers are 
either just getting up or are ineffective, how do you on the 
Department level, given that much of this is driven at the 
State and local level in terms of what gets inputted into the 
system, how do you plan to make sure that those third get up to 
par?
    Secretary Napolitano. We are going to work directly with 
them. We have some staff that are really just focused on the 
fusion centers.
    The other thing we are doing is putting some of our own 
analysts in the fusion centers to help with identifying the 
kinds of information that we need, the suspicious activity 
reports (SARs), and what really constitutes a SAR and what does 
not and how it gets transmitted.
    So my hope is that over the next months and couple of years 
that we really will see a rapid maturation of the entire 
network.
    Senator Ayotte. OK. Thank you very much.
    Let me add my support to the efforts that Dr. Coburn 
mentioned about consolidating grants, and I appreciate that you 
are doing that and to make sure that the grants really are 
meeting our current needs, because having seen, when I was at 
the State level, the initial grants that came out, it struck me 
as very scattered, and giving communities certain capacities, 
that I could not understand how it fit in a bigger picture of 
protecting our homeland, and there was not much coordination. 
So I would love to help you with that effort and appreciate 
that you are undertaking that.
    Thank you for being here today.
    Secretary Napolitano. Thank you.
    Chairman Carper. Thanks, Senator Ayotte.
    Senator Baldwin, you are next, followed by Senator Begich.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you.
    Madam Secretary, thank you very much for being here and for 
your service. I want to just add my words to those of the 
Chairman about the tragedy in Boston. Obviously, our thoughts 
and our hearts are with the families and particularly with the 
first responders, both those who were not wearing a uniform and 
ran to help and those wearing a uniform who ran to help, and 
many of those first responders lie within the Homeland Security 
Department and I hope you will share with your agents our 
respect and gratefulness for their work.
    I wanted to start with just a specific on the line of 
questioning that you just had on fusion centers. Specifically, 
budget-wise, the Federal assistance to fusion centers mostly 
comes in the form of DHS grants rather than direct funding. And 
I want to hear your thoughts on that mechanism and the level of 
funding. Should they be grant funded or direct funded in your 
opinion moving forward? What should we be looking at in terms 
of the policy of that funding mechanism?
    Secretary Napolitano. You are right, Senator. Historically, 
they have been FEMA grants to the States, and the States can 
use the money however they want. When it started, those FEMA-
to-State grants were pretty wide open.
    We have been putting more and more, I want to say, guidance 
into those grants, and one of the things about risk based is it 
is also competitive. One of the things we look at is are the 
grantees really looking at our guidance and making a fair 
analysis as to how what they are proposing meets the guidance.
    So we have specified fusion centers as one of the 
priorities in the guidance. We have not recommended a direct 
fusion center grant.
    Senator Baldwin. OK. I understand that the budget numbers 
for the Office of Intelligence and Analysis (I&A) are 
classified. However, to the degree that you can in this forum, 
please talk about how much of a role I&A plays in working with 
State and local officials, in particular given the tragedies 
this week, to State and local officials to prepare for and 
protect the public at major public events.
    Secretary Napolitano. I think one of the major roles of our 
I&A--and I speak now as a former State Attorney General and 
Governor--is to translate intel that we collect through the 
whole alphabet of agencies around the Beltway into a form that 
State and locals can use. What are the indicators and behaviors 
we are watching for? What is the most up-to-date information 
that can be shared about an investigation? What should they be 
doing in the course of an investigation if we are not able to 
totally close off the possibility that there is a more 
widespread plot? Those sorts of very concrete things that 
require, I think, an active interpretation, really, from the 
intel world to the State and local world.
    So that is where we focus a lot of our I&A efforts. We work 
with the FBI on this. So, for example, we have been putting out 
to State and locals what we call a joint intel bulletin (JIB). 
We put out the first one yesterday morning to law enforcement 
that needed to see it. That obviously included more detail than 
what was being made totally public, that sort of thing. And 
there have been updates to that over the course of the last 30 
hours.
    Senator Baldwin. OK. Thank you.
    I understand that there will be a $10 million cut to the 
border security infrastructure and technology account affecting 
the security of the Northern Border. I wonder if you can just 
explain this cut and how it will impact Northern Border 
security or how you will adapt to make sure it is not impaired?
    Secretary Napolitano. Right. Well, the Northern Border 
represents a different set of responsibilities and 
opportunities than the Southwest Border, and we are fully 
cognizant of that. I think the $10 million is a haircut, 
particularly compared to the President's proposed increase in 
port officers. And when I go up to the Northern Border, that is 
the No. 1 thing I hear, is the need to have more lanes staffed 
at the land ports because of the amount of commerce that goes 
back and forth. So I hope that we do not see anything of any 
major level impact from that.
    Senator Baldwin. Well, since you mentioned port security, 
there was just a fairly extensive dialogue about the 
preparedness grants consolidation. How do you think that will 
impact port security?
    Secretary Napolitano. Well, I think port security is 
obviously one of the things that goes into any kind of a risk 
analysis. I will give you an example.
    Yesterday, or 2 days ago, when the bombings occurred in 
Boston, you have the harbor there. You have the Charles River. 
You have to immediately make sure that what you are looking at 
is two bombs and not a Mumbai-type attack. So, immediately, we 
were working with the Boston Police Department and the Coast 
Guard to increase security in the harbor in the Charles River 
until we could satisfy ourselves that there was nothing 
imminent there, although we have maintained that increased 
level of security.
    You have to have the capacity to do that. You have to have 
personnel. You have to have equipment. The personnel have to be 
trained, supervised. They have to be exercised. Ports have 
internationally been used as a place where attacks occur. So 
when we looked competitively at risk-based, ports obviously 
will have to be given very serious consideration.
    Senator Baldwin. OK. Thank you, Madam Secretary.
    Chairman Carper. Thanks, Senator Baldwin. Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you very much. Good to see you. Thank 
you yesterday for the briefing. Also, I will not add to that 
except to say thank you for the incredible work you are doing 
right now in Boston. I know there are a lot of good people on 
the ground as well as here in DC and around the country working 
on it, so thank you for your efforts.
    I have two unique roles which work with your agency. The 
first is I will chair, this year, the Subcommittee on Emergency 
Management and Intergovernmental Affairs here in this 
Committee. So we will talk a lot more later on FEMA, but one of 
the things that I know comes up a lot is the State grants 
issue. And I know in the budget proposal there are some ideas 
on some statutory changes that may be needed. I think we are 
going to plan a June or July hearing and discussion, so we will 
save these questions for later.
    Also, I will continue to chair the Oceans Subcommittee, 
which has, as you know, jurisdiction over the Coast Guard and 
fisheries, a lot of issues that touch you, probably more than 
you wanted, but are an important part of Alaska's interests.
    If I can, I want to start for a second on FEMA, then I am 
going to move on, because I will save a lot of those questions 
for later. And that is, when there is a disaster that occurs, 
maybe a small or large disaster, one of the biggest issues is 
how you get information out to the public. As a former mayor, 
we always felt like we were on the front lines for that.
    Secretary Napolitano. Yes.
    Senator Begich. Do you think the system you have now has 
improved significantly? And do you think there are other things 
we could be doing to help make sure that--when there is a 
disaster, it is that first 24 hours of communication that seem 
to be probably the most critical, prior to and as it is 
occurring. Are there road blocks still out there that are 
causing that communication not to be fully developed? Or how do 
you feel where you are at today than maybe where we were 5 or 6 
years ago? Does that make sense, the question?
    Secretary Napolitano. I think so.
    First, with respect to the legislative language that should 
go along with the grants consolidation, we will be prepared to 
submit the appropriate legislative language for your 
consideration.
    Senator Begich. Fantastic.
    Secretary Napolitano. This involves an interaction between 
the appropriations process and the authorizing process to get 
done.
    Senator Begich. And I am on both, so----
    Secretary Napolitano. All right. [Laughter.]
    Second, with respect to communication, are you speaking, 
Senator, with respect to communication between us and the 
people at the city level or----
    Senator Begich. Public.
    Secretary Napolitano [continuing]. With the public in 
general?
    Senator Begich. Public.
    Secretary Napolitano. I think it is much better. I think we 
have increasingly used social media, because so many people now 
receive their information through those many vehicles. So we 
tweet and we put stuff online and we do a lot of things to make 
information generally available.
    Lessons learned, as we all know, the initial hours after a 
disaster there is often a lot of confusion and misinformation. 
So one of the things that we have been working on is seeing how 
quickly we can kind of identify what we know and explain what 
we do not know to the public.
    Senator Begich. Right.
    Secretary Napolitano. And then, of course, we recognize the 
public often has really--Where do I go? How do I find my kids?
    Senator Begich. How do I get shelter? Where do I go?
    Secretary Napolitano. How do I get shelter, exactly. So 
setting up multiple ways people can get that information as 
quickly as possible.
    Senator Begich. Very good. So it is an improving process, 
still more work to be done, but better than it was.
    Secretary Napolitano. I think we can always improve.
    Senator Begich. Good. Let me ask you, in regards to the 
Coast Guard budget, I know in the budget I think it is about a 
12- or 13-percent reduction, mostly on capital assets which is 
the bigger chunk. And, of course, you probably know where I am 
going, and that is, I am concerned when I look at the increased 
activity. And we got a little pause this year, this fiscal 
year, because of the oil and gas exploration issues. But 2014 
and 2015 is going to be pretty robust up there. And obviously 
my concern is, as you reduce that budget--and I know we are in 
this tight budget situation, and I recognize that, but how do 
you see that impacting what is going to happen in monitoring 
not only what is in the 2014-15 future, but really this year 
with, fishing and drug interdiction and all these things that 
are critical? And, of course, from Alaska's perspective, the 
fishing issue is huge. And we have seen, as a matter of fact, 
the day we were out there in Alfical Bay, we saw an incredible 
new facility that has done some great work on fishing. And so 
how do you see that impacting the enforcement efforts, and then 
obviously the oil and gas industry, making sure we have good 
coverage for what is going to happen there?
    Secretary Napolitano. Well, I think what we will see is a 
continue of the sequester on operations of the Coast Guard, and 
that has been in some areas a 20-, 25-percent reduction in 
daily operations. But I think that will continue.
    On the other hand, the continued work on the National 
Security Cutter fleet is designed so that we have in essence a 
mobile platform to be up in northern Alaska during the drilling 
season as opposed to building a permanent Coast Guard station 
that really would not be used half of the year.
    Senator Begich. Right.
    Secretary Napolitano. And the NSC has the capability to----
    Senator Begich. Well, they are like a whole town out in the 
water.
    Secretary Napolitano. Yes, they can provide air coverage; 
we can operate search and rescue from the NSC, et cetera. So 
the NSCs are large investments, but they have a much greater 
number of uses than the other types of vessels we have in the 
Coast Guard.
    Senator Begich. Very good. Let me ask you also--my time is 
limited here. It seemed like last year the Administration was 
moving forward on icebreakers impressively. I think in the 5-
year plan there was $120 million or so for construction, but 
this year it has ratcheted back quite a bit.
    What do you see there--and, first, I commend you for making 
sure the one that we asked to be renovated got renovated. And 
moving forward, I know there is a lot of controversy of should 
we do it, should we not. But I think it is going to pay off 
long term.
    Give me your sense on what we see as the future as Russia 
and China are very busy, especially China, building icebreakers 
left and right, because they think they own the Arctic, to be 
very frank with you. They say that. They divide it up by 
population, which, if I am not mistaken, they are not an Arctic 
nation. We are.
    Secretary Napolitano. Right.
    Senator Begich. So that was my commentary there, but what 
is your thought on icebreakers and what we see in the future?
    Secretary Napolitano. The proposed budget does continue 
work on another second polar icebreaker, but it is a small 
downpayment, and that, quite frankly, is looking at what could 
be done this year and how it fits within the overall budget, 
not only of the Coast Guard but of the Department, writ large.
    But I agree with you, our Nation needs a very strong Arctic 
position and Arctic policy, so we are very heavily engaged with 
the White House on the development of that plan.
    Senator Begich. Very good. Thank you for your testimony, 
and I will look forward to the legislation regarding the 
grants. And then the last thing, I will send a question 
regarding whether you should look at leasing equipment also in 
a partnership with the private sector for some of these larger 
vessels that we may not have the capital for. But you do not 
have to answer that. I will just send it in, and we will have a 
conversation on that.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you, Senator Begich.
    Next is Senator Paul, followed by Senator McCain and 
Senator McCaskill.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Madam Secretary, thanks for coming to the 
Committee today and for your testimony.
    Are you in favor of having our commercial pilots armed?
    Secretary Napolitano. I think properly trained and if they 
have gone through our Federal Flight Deck Officer (FFDO) 
program, arming can be appropriate, yes.
    Senator Paul. I guess I am concerned because in your 
budget, the Administration's budget, we have zeroed out the 
funding for the training of pilots. I think that has been done 
a couple times, and we have had to add it back in. So we were 
wondering about your commitment to arming pilots. We think it 
is a----
    Secretary Napolitano. Well, I will tell you the reason why 
we have zeroed it out, Senator, and that is--and it goes to a 
lot of the changes in the budget. We are moving to risk based, 
and the FFDO program is not risk based. It is just happenstance 
whether you happen to have a pilot on board that went through 
the training or not.
    We are offering the training to air carriers if they want 
their pilots covered. But we would rather stick with the 
Federal Air Marshals (FAMs), who are apportioned based on risk.
    Senator Paul. Well, I do not think I can overemphasize the 
importance of deterrence, and part of deterrence is not knowing 
who is armed and who is not armed, not knowing whose house has 
guns and who does not. That is why we do not want registries 
published of who owns guns and who does not. But I feel better 
even if 5 percent of the pilots have it because the terrorists 
do not know which 5 percent are. I would rather it be 100 
percent are armed. But I think zeroing out the funding shows a 
lack of commitment to the idea of self-defense, and I think 
this sends a huge signal to terrorists around the world if we 
are not going to arm our pilots.
    In fact, I think we need to go the opposite direction. I 
think we have one training facility in New Mexico where the 
pilots are trained. Is that where they are trained? Anyway, the 
pilots complain about the costs, the expense also, and the time 
away. It is a 48-hour program. We have training facilities for 
policemen in every State. I do not see any reason why we could 
not cooperate and make it a lot cheaper. I am for saving money. 
I do not mind saving money. But we have all kinds of sunk costs 
in training facilities for police officers, State troopers. It 
should not have to be done in one place. You have a manual. 
Send the manual around. Let them learn how to do it and have it 
done. we have concealed-carry in most of the States around the 
country. There is no reason why you cannot have local training.
    I would also take military officers who have had extensive 
training already, and I would exempt them from half the program 
so they can save time and expense on getting it done.
    But I think the idea of deterrence cannot be measured. You 
cannot measure how important it is to have deterrence. But I 
think that a lot of us would argue that having pilots armed is 
a great deal of deterrence, and we should not send any 
indication to any terrorists around the world that we are not 
serious about having our pilots armed. Thank you.
    Chairman Carper. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you. Thank you, Madam Secretary, and, 
again, I share with all of my colleagues our appreciation for 
the great work that your people are doing, especially in light 
of the tragedy in Boston.
    Madam Secretary, I am sure you heard that Senator Schumer 
and I met with the President yesterday and briefed him on our 
immigration reform proposal, and he expressed his strong 
support. Do you share that view?
    Secretary Napolitano. Yes. I obviously have not read all 
854 pages in detail, but I think it embraces the principles the 
President has enunciated, and it is very comprehensive in its 
approach, so very appreciative of the work that you have done 
on this.
    Senator McCain. Thank you very much. That then also means 
that you support the President's position that we should have a 
trigger on border security.
    Secretary Napolitano. It depends on what the trigger is 
for, but as I understand the way the bill is written, that 
looks like a very reasonable approach to border security.
    Senator McCain. Thank you.
    One of the big problems we have is that you abandon the 
metric of operational control, and you have not given us a 
border security index. Let me quote from your hometown 
newspaper, an editorial the other day: ``If President Obama 
really wants immigration reform, he needs to put pressure on 
Homeland Security Secretary Janet Napolitano. She has not 
finished an important job. Her agency has failed to produce a 
simple standard for measuring border security, a project the 
Department of Homeland Security started in 2010, but apparently 
has not worked up much of a sweat to finish.''
    I will not complete the editorial.
    And then, unfortunately, one of your people testified to 
the House and said that--Mr. Borkowski told Republican Candice 
Miller, ``I do not believe that we intend that the Border 
Condition Index (BCI) will be a tool for the measurement that 
you are suggesting.''
    Now, the Government Accountability Office has also issued a 
very scathing report about, again, a failure of establishing 
metrics. Do you intend to come forth in a far more transparent 
manner with a border security index?
    Secretary Napolitano. Senator, let me give you some 
background on this and try to answer this question as concisely 
as I can.
    There are so many ways to measure the border that the 
problem with the operational control definition was it did not 
encompass all of the ways you can look at the border. So we 
said let us look at what all goes into, is the border a safe 
and secure area.
    And then it turned out, as you got into it, that is a much 
more difficult question to answer than it is to ask. There are 
a whole host of statistics, just like you have a whole host of 
statistics on a baseball player. And so you have to look at the 
picture and see what the trend lines are and the like.
    Now, we have supplied those numbers ad infinitum to every 
committee that has requested them, and we still intend to work 
on an overall border conditions index. But the notion that 
there is some magic number out there that answers the question, 
I wish I could tell you there is, but we have not found it yet.
    Senator McCain. I know that there is. I know that there are 
ways of determining security anywhere in the world and in the 
United States of America. Now, whether it be on apprehensions--
which, by the way, interestingly, are up 13 percent, which kind 
of contradicts the arguments that the border is much more 
secure when you are talking for years about how apprehensions 
are down as a measure of that. I cannot believe, it is beyond 
anyone's belief, nor anyone in the Senate that has worked on 
this issue, that you cannot come up with a measurement of the 
security of our border. If you cannot do that, then we will in 
legislation. We will.
    So for you to assert that somehow we cannot give the 
American people an accurate depiction of the border--of the 
security on our border, where drug dealers are moving across 
into Arizona, as we know, where coyotes continue to put people 
in the most unspeakable conditions, and we do not have a 
measurement as to how we are doing on one of the fundamental 
requirements of any nation, and that is, border security, is 
frankly beyond me.
    Secretary Napolitano. Well, if I might, Senator, if you 
have a magic definition, I would be happy to look at it.
    Senator McCain. The Government Accountability Office has a 
number of metrics that could be used. Why don't you consult 
them? Because they know, even if you do not.
    Secretary Napolitano. Well, the GAO, as you know, one of 
their ratios is one that we have a lot of problems with, and we 
have explained that, at least to your staff.
    Senator McCain. Well, it sure is better than nothing, which 
is what you have come up with, Madam Secretary.
    Secretary Napolitano. Well, you do not have nothing, 
Senator. You do not have----
    Senator McCain. We do not have a measurement of border 
security, period. And your spokesperson said that would not be 
coming forth anytime soon.
    Secretary Napolitano. Well, I am my own spokesperson, and 
let me, if I might, you do have a definition. You have many 
definitions. You have every statistic in the world, and you 
have your own observations. And what I have appreciated during 
this debate, as you have been working on reform, is your going 
down to the border, and you know from your own personal 
observation, it is different now than it was 5 years ago and, 
indeed, 10 years ago.
    We need to sustain those efforts. We need to be able to put 
force multipliers down there, like technology. We need a 
national E-Verify-type program, which is a main driver of 
illegal immigration. We need the ability to clean up the visa 
system, which is also a main driver of illegal immigration. 
Those things all go together.
    So we look forward to working with you on this bill as it 
goes through the process, but, again, if I could give you a 
magic number and say if we hit 42 we are in, I am not sure that 
would be either fair, accurate, and in any event, would not 
reflect all of the factors that need to be taken into 
consideration.
    Senator McCain. Well, my assertion is that we can determine 
whether our border is secure or not using information including 
what we can from new radar, the VADER radar. And, again, I tell 
you, if you do not give it to us, then we will decide 
ourselves. But we will have a measurement of border security. 
We owe that to the people of this country.
    Who was in charge and made the decision to release 3,000 
people who were detainees? Who made that decision?
    Secretary Napolitano. I do not--3,000?
    Senator McCain. It was a total, I believe, of some 3,000 
who were released, I have forgotten what date it was.
    Secretary Napolitano. Oh, I think I know what you are 
referring to. Yes, I know what you are referring to. This was a 
decision made within ICE as we were under the continuing 
resolution with no prospect of a budget and sequestration to 
see what detainees could be put in alternatives to detention as 
a way to control costs.
    Senator McCain. I and now Senator Levin have made requests 
for information about those individuals who were released, 
their backgrounds, whether they had criminal activity. And so 
far you and your agency--well, you, because we wrote the letter 
to you, have not given us the information. Do we expect that 
information?
    Secretary Napolitano. Let me followup on that and see where 
it is.
    Senator McCain. OK. We first wrote to you in March, and 
then Senator Levin and I on behalf of the Permanent 
Subcommittee on Investigations (PSI) wrote to you just a couple 
of weeks ago. I hope we can get that information. I think the 
American people deserve it.
    I look forward to working with you as we move forward with 
comprehensive immigration reform, and I hope you understand 
that in 1986, I guess I am the only one here that voted for 
Simpson-Mazzoli. We gave amnesty to 3 million people on the 
proviso and the promise that never again would we have to worry 
about people coming into our country illegally because we were 
going to secure our border and take the necessary steps. Now we 
have 11 million people. We owe it to the people of this country 
that there not be a third wave 10, 15, or 20 years from now of 
a renewed number of people who have come to this country 
illegally.
    All of us are advocates of immigration, but we believe it 
should be a fair system, and we believe that to have people 
living in the shadows--and you are as familiar as I am with the 
way they are now being brought to this country--we must address 
this issue. But the American people have to be assured that 
there is not going to be a third wave. You can be very helpful 
to us in putting into law the necessary measures, as you say, 
including E-Verify, that would prevent not only the demand but 
the supply. And I thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Secretary Napolitano. If I might, just one comment, 
Senator.
    Chairman Carper. Go ahead.
    Secretary Napolitano. One of the things that I noted in the 
draft legislation is that it has a cutoff date, so that 
individuals who come after the cutoff date are not eligible and 
would not be eligible for the pathway. This is as I understand 
on a cursory reading of the bill.
    I think it is very important to get that information out. 
One of the things that happened after 1986 is there was a 
surge. We do not want that to happen again, and the way you 
prevent it is exactly as the proposal indicates.
    Senator McCain. I think it might be one of the factors in 
the 13-percent increase that we are seeing this year. Would you 
agree with that?
    Secretary Napolitano. We are not----
    Senator McCain. That and the economy?
    Secretary Napolitano. I think the economy, and the real 
surge, I can tell you, is in the Southern Rio Grande Valley, 
and it is other-than-Mexican immigrants. It is Central 
Americans. We are already moving manpower and equipment down 
there to deal with that. I think we will be able to report some 
significant progress shortly.
    Senator McCain. Thank you.
    Mr. Chairman, I apologize for overspeaking my time.
    Chairman Carper. You have earned that right. Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    I, too, want to greet you and commend the rapid response of 
so many first responders and law enforcement assets to Boston 
in a way that was clearly benefited by investments that we have 
made in the Federal Government and investments that we have 
embraced on this Committee. And so when it is executed in a 
professional way, you deserve kudos for that, and I want to 
give you kudos for that. But I am a former prosecutor, and I 
have a question that is just--I cannot keep it from coming out.
    Based on the evidence at this point, is there any 
difference between Sandy Hook and Boston other than the choice 
of weapon?
    Secretary Napolitano. Well, in terms of intent for death 
and destruction and injury, no. Methodology, yes. And we do not 
know the motivation behind Boston. We do not know whether it 
was domestic, international----
    Senator McCaskill. Or if it was identical to the motivation 
in Sandy Hook.
    Secretary Napolitano. We just do not know the answer to 
those questions. So I think that it is impossible for me to sit 
at the table today and say they are identical, except in effect 
and impact.
    Senator McCaskill. Well, as I look at the evidence that is 
available, you have mass destruction and violence and slaughter 
of innocents, and in neither case do we know motive. And the 
irony is we are so quick to call Boston ``terror.'' Why aren't 
we calling the man with the high-capacity assault weapon and 
the high-capacity magazine, why aren't we calling him a 
``terrorist''?
    Secretary Napolitano. I do not know the answer to that 
question.
    Senator McCaskill. I think it is important that we talk 
about that in government because--and it may be that we learn 
the motive of both, and it may be the motive in Sandy Hook was 
political and the motive in Boston was not, or the motive in 
Boston was political and the motive in Sandy Hook was not. It 
may be they both are suffering from severe mental incapacity 
that caused them to want to go slaughter a bunch of innocent 
people.
    But, as I look at it with the eye of a prosecutor and the 
evidence that is available right now, I find it troubling that 
one is characterized in a way that causes so much more fear and 
disruption in everyone's daily lives than the other one--not 
that there are not mothers all over the country that are afraid 
to send their first graders to school these days. There are. 
But I would certainly urge you, Secretary, to take a look at 
this and see if the government has a responsibility as to when 
and how we characterize an act, a criminal act, an ``act of 
terror'' when there is not evidence yet to support, I believe, 
that characterization until we know what the motive is. It just 
is troubling to me, and I think both of them--it may be they 
had identical motives, just one chose a military-style weapon 
with a high-capacity magazine, and the other one chose to make 
a homemade bomb.
    Let me ask you about interoperability. We have now spent a 
huge amount of money on interoperability, and I know this is a 
headache. But we have spent almost half a billion dollars on 
interoperability, and we have another contract up for $3.2 
billion for new infrastructure, but yet we still cannot talk to 
each other. And obviously we have an Inspector General (IG) 
report that says, this has not gone well, we have wasted a lot 
of money.
    Can you give me any hope in the front of interoperability?
    Secretary Napolitano. Yes, and I think the hope actually 
stems from the Congress' decision to set aside broadband 
spectrum for public safety and the creation of the FirstNet 
Board and the way that that has been funded. My interactions 
with the board, which also includes private sector 
representatives, suggest to me that we now have the money and, 
more importantly, the decisionmaking expertise to finally 
create a more universal answer to this problem.
    There is more interoperability in the system than people 
allow. Sometimes the question is: Who needs to be interoperable 
with whom? And so if you go for everybody needs to be 
universally interoperable, that is a different question than if 
you say everybody at a certain rank needs to be interoperable 
with others at a certain rank and so forth.
    So the definitional issues are important in terms of the 
universe you are trying to cover, but, nonetheless, I think, 
Senator--and we can get a briefing to you on this. I think in 
my judgment, having dealt with this issue for far too long and 
having dealt with it as a Governor and as a State Attorney 
General and being very frustrated at what was going on, this is 
really hope for the future.
    Senator McCaskill. I would love to get that briefing.
    The GAO report--and I know my colleague is going to maybe 
cover this more fully, but I do want to just emphasize the R&D 
policy guidance. The research and development, GAO says that 
there is no departmentwide policy defining R&D and as a result, 
you do not really know what your total investment is in R&D, 
which limits your ability to oversee it.
    I know that there is actually money that goes back and 
forth from various parts of your budget under this rubric of 
R&D. Are you taking some steps to address these concerns about 
getting a handle on maybe some duplicative R&D that is going on 
and contracts that are being let and maybe the right hand does 
not always know what the left hand is doing?
    Secretary Napolitano. Oh, yes, I do not know the date of 
that report, but we have been involved in the last year in a 
very extensive effort led by our Science and Technology 
Directorate and our Acquisitions Review Board to do a portfolio 
review of all the R&D projects throughout the Department 
precisely to identify any unnecessary redundancies, make sure 
that we have quality control, and that we have an acquisition 
plan that is resultant from R&D. So the answer is that that is 
an area where we have made significant improvements over the 
last year.
    Senator McCaskill. Maybe that Director could get with us, 
because the report was issued last week, so----
    Secretary Napolitano. Well, they typically are not current 
on their research, but we will be happy to respond.
    Senator McCaskill. It is the 2013 annual report. So let us 
make sure that we figure out where we are and I would love to 
get a brief also from that Director about where the R&D is 
going, because I see this all over government, that we are 
doing R&D at Defense, at Homeland Security, sometimes two or 
three within Defense and Homeland Security, at three or four 
different universities, and they are doing the exact same R&D. 
And I just want to make sure that is not occurring.
    So thank you very much.
    Secretary Napolitano. You bet.
    Chairman Carper. Secretary Napolitano, maybe we will start 
off a second round. I think Senator Coburn and I have some 
additional questions and would appreciate your sticking with us 
for just a while longer.
    Secretary Napolitano. Sure.
    Chairman Carper. Some of our colleagues may come back as 
well.
    I want to go back to a point raised by Senator McCain. We 
talked about the 3,000 or so detainees that were released from 
a detention center. That is a matter that concerns a lot of us, 
not just that 3,000 people were released, but the issue where 
some of the people who were released were felons. In our roles 
as Governors, I do not know if that ever happened to you under 
your watch, but from time to time people were released, not 
often but infrequently, from prison in our State that should 
not have been released. And we had prisoners with the same 
name, several people with the same name. And once or twice the 
wrong Robert Smith, if you will, was released. So stuff happens 
like that.
    I would just urge you and the folks at ICE to be extremely 
careful going forward to make sure, to the best we can ensure, 
if there are any other detainees released--my hope is that will 
not be happening, but if there are, that they are folks who 
have really no record of felonies or any kind of violent 
behavior.
    The second thing I want to do in following up on his 
comments--actually, I want to steal just a page--not the whole 
report, but I want to just take a moment to thank Senator 
Coburn and his staff, along with the Permanent Subcommittee on 
Investigations, for their work in looking at fusion centers. 
And I think he will talk about this more at length, but I guess 
we have about 75 of them now. Some of them are really good. 
Some of them are pretty good. Some are not very good. And some 
are just--I will not say of no value, but of very little value. 
And as we work to try to target our resources in places where 
they could provide the best bang for our buck, the question I 
am going to ask you is: What are we doing to make sure that the 
ones that are of little value or marginal value, what are we 
doing in a proactive way to make sure that they step up their 
game?
    I will use an example. Long before I came to public office, 
I was a naval flight officer and served as a mission commander 
in a Navy P-3 aircraft, which still fly in the----
    Secretary Napolitano. We have them.
    Chairman Carper. Homeland security, that is very 
encouraging. But we had many patrols going across the country, 
around the world actually. Our job was to do maritime 
surveillance, the surface of the ocean and subsurface of the 
ocean we tracked. ``The Hunt for Red October,'' we did a lot of 
those missions and a lot of missions off the coast of Vietnam 
and Cambodia in that war.
    But we had some squadrons in the Navy P-3 role--this is an 
exaggeration--that had a hard time spelling the word 
``submarine'' much less finding them. And we had some that were 
terrific, and then a lot in between. And one of the things we 
did, the Admiral we worked for created tactical training teams 
to actually go out and to work literally with each squadron, 
maybe 12 crews, but literally to fly with, and work with those 
squadrons--they were marginal performers--literally worked with 
the crews that needed the most help.
    And I do not know if a similar kind of approach--but a 
tactical team approach worked for us, really raised the 
performance of the Navy P-3 role in our maritime patrol 
responsibilities. Something like that might be of value. I 
would just lay that out on the table and again commend Senator 
Coburn and his staff for their work on this area.
    Second, I want to turn to, if I can, cybersecurity, and I 
am encouraged that the Senate is actually coming together and 
starting to work more cohesively, more collaboratively. 
Immigration reform is one example. Gun legislation is before 
us. They are agreeing on a continuing resolution for the 
balance of the fiscal year and providing some discretion from 
your Department and others to manage through those cuts more 
effectively.
    But I am encouraged that we are starting to see some 
cohesion forming around what to do, not just within the 
Congress, but also with our key stakeholders and your efforts.
    I have a question I wanted to ask with that in mind. The 
budget of the President includes increases for your 
Department's assistance to the private sector and to other 
Federal agencies. Could you just take a moment and describe how 
those increases for cybersecurity are designed to help our 
partners with critical infrastructure and other Federal 
agencies that have experienced cyber attacks? Could you do 
that?
    Secretary Napolitano. Yes, I think cyber obviously is 
probably the fastest growing area of the Department, in part 
because that is where we have seen the most activity grow over 
the last few years.
    The President's budget does a couple things. It increases 
funding for our ability to secure the civilian side of cyber--
the networks there, including continuous diagnostics and 
monitoring. It increases funding for the Computer Emergency 
Readiness Team (CERT), which is a response team that works with 
the private sector in response to incidents. Sometimes they 
work out of the National Cybersecurity and Communications 
Integration Center (NCCIC), which is the 24/7 watch center 
here. They actually go onsite wherever the attack is located or 
centered. It increases funding for the industrial control 
systems, a CERT in particular, because the attacks on control 
systems are of increasing concern. So we have that.
    So it really goes through kind of all of the 
responsibilities we have both within the Federal Government, 
but also with the private sector, and provides some needed 
additional funding.
    Chairman Carper. All right. Thanks.
    As you know, the President--in fact, you were very much 
involved in this. The President recently issued his Executive 
Order to strengthen our critical infrastructure. I especially 
want to applaud whoever figured out the idea of assigning to 
National Institute of Standards and Technology (NIST) the 
responsibility for doing the outreach to key stakeholders and 
asking them for their involvement and their participation in 
deciding what best practices should be. That was a good move, 
and I am hearing very positive comments in particular from the 
business community and the private owners of the critical 
infrastructure on that.
    But could you describe how the budget request would be used 
to implement the President's Executive Order?
    Secretary Napolitano. Well, the EO and the budget are 
integrated together. I mean, they were in some respects 
prepared almost at the same time. And the EO, as you know, 
directs us to do a number of things with the private sector, 
with NIST, et cetera. And so we are given the resources with 
which to do that and to meet the timelines that are in the EO.
    Chairman Carper. All right. And before I turn it over to 
Senator Coburn, I want to come back to the issue of fusion 
centers again. I mentioned the Navy P-3 where we used tactical 
training teams to go out and work with the marginally 
performing squadrons. In the nuclear regulatory world, I chair 
a Subcommittee that has jurisdiction over clean air and the 
Nuclear Regulatory Commission (NRC). We have about 100 nuclear 
power plants, and we use a system where we have seen--I think 
we call them ``red teams,'' where we have literally seen teams 
out there to test the security. They do not go carrying weapons 
and finding weapons, but it is pretty realistic, and it 
actually raises everybody's game. It is just another example of 
that.
    Secretary Napolitano. We do a lot of red teaming, Senator. 
That is a very good way to test whether what we are doing makes 
sense----
    Chairman Carper. I would just ask----
    Secretary Napolitano [continuing]. And find gaps.
    Chairman Carper. Good. That is good. I would just ask that 
we consider that with respect to the fusion centers as we try 
to raise their game. Thank you.
    Secretary Napolitano. Fair enough.
    Senator Coburn. Mr. Chairman, I asked the staff of PSI to 
give every Member of our Committee a copy of that.
    Madam Secretary, when we talked about the consolidation of 
all these grant programs, would you kindly provide the 
Committee with a State-by-State and port-by-port breakdown of 
Port Security Grant Program (PSGP) funding from 2010 to 2012?
    Secretary Napolitano. Yes.
    Senator Coburn. Thank you, if you would do that.
    And I am correct, other than classified information, the 
spending coming through these grant programs goes on 
USASpending.gov?
    Secretary Napolitano. I believe that is correct, yes.
    Senator Coburn. All right. Let me talk about fusion centers 
for a minute. I know you did not like my report very much. I 
heard about it in all sorts of ways. Here is the real crux:
    Our Joint Terrorism Task Forces (JTTF) are working well. 
You cannot go to a place where the local law enforcement does 
not have a great relationship with the FBI in terms of running 
those organizations. So the question comes: What is the added 
value based on the amount of money that is spent on the fusion 
centers and what do they bring? And there are some real privacy 
rights that have been violated in fusion centers that has to be 
cleaned up, which we documented. We are not the majority of 
money that is spent on the fusion centers. In other words, we 
are not the No. 1 funder. That is State and local communities.
    So the question is: With the limited budget, where do we 
get the most bang for our buck? And that is my question. What 
have we developed, what have we seen? And as we researched 
this, what we found was not very good value for the money that 
we are getting.
    Now, your job is to be a visionary, and you are seeing at 
some point in the future, I understand, where you think that 
value is going to come. I just have real doubts about it, and 
so I will continue to work with you on it and everything else. 
But in a time of limited budgets, what my hope would be is what 
we take is something that is really working well, which is the 
JTTF organizations--and they do work well--and really enhance 
them where we can to maybe do everything you want to see done 
in a fusion center done there, rather than have two separate 
organizations.
    So, anyhow, you and I will continue that conversation in 
the future, and hopefully we will get a little bit better bang 
for our buck out of what is going into fusion centers and more 
product that is actually usable coming out of them.
    Secretary Napolitano. If I might, Senator, I would be happy 
to work with you on that. I hope to at some point persuade you 
that really what we need are both. The JTTFs are good. We are 
the largest participant in the JTTFs besides the FBI.
    But they are there to coordinate and investigate incidents 
of suspected terrorism. They have a dedicated mission. The 
fusion centers are there to collect information and provide 
analytics on all sorts of hazards. They have a much broader and 
more diffuse mission.
    I think the fusion centers can be made better. I am not 
quarreling about that. But I would suggest to you that putting 
everything under the terrorism label is too narrow----
    Senator Coburn. Except that is not what is really happening 
in the JTTF. There is drug stuff, there is all the other stuff. 
If you talk to sheriffs, if you talk to police chiefs, where do 
they go? They do not go to the fusion center. They go to the 
Joint Terrorism Task Force because that is where the 
information is that is timely. The problem with fusion centers 
is their information is always dated. It is behind the curve.
    Now, maybe some of them are very good, and I do not doubt 
that Boston's was. But the point is, can we do that, can we 
create one organization rather than two and still have a 
benefit and save the taxpayers' money and have timely 
information? That is all I am saying. I am not against fusion 
centers, but we certainly--what the GAO report said April of 
this year is there is tons of duplication going on that the 
American taxpayer either at the State level or at the Federal 
level, is paying for. So why are we duplicating things, again?
    And that actually takes me into the other area that I 
wanted to work with you on, which is the GAO's recent 
duplication report. I do not know. Have you read it, been 
briefed on it?
    Secretary Napolitano. I have a summary of it, yes.
    Senator Coburn. What steps are you taking now to address 
the areas identified by GAO in terms of duplication in your 
Department?
    Secretary Napolitano. I have asked our management team to 
look at all the areas that GAO identified and to give me their 
assessment as to whether the GAO was correct, whether we have 
already corrected what the GAO perceived, because as I 
indicated to Senator McCaskill, by the time a GAO report is 
written, sometimes you do not have the most current 
information. That is just the way--I am not being critical, 
just descriptive.
    Senator Coburn. Yes.
    Secretary Napolitano. But, yes, if we can--under these 
budget times, we have no interest in wasting any taxpayer 
dollars. So if I can find a redundancy or something can be done 
efficiently--that is what our Efficiency Review process is all 
about--we are going to do that.
    Senator Coburn. The other thing that would come is where 
you see an area where you need our Committee's help, what I 
hope you will do is say, ``You guys got us doing three 
different things in three different areas that actually lead to 
the same result. Here is a recommendation. Why don't you guys 
change this?''
    So what I would like is that you really are forward with us 
when you look at all that the GAO has put out and say, 
``Congress, you have to change this for us if you expect us to 
be efficient and save money.''
    Secretary Napolitano. Fair enough.
    Senator Coburn. All right. Senator McCaskill talked about 
the Science and Technology Directorate and the duplication 
there. It is big, in terms of what GAO says. And I notice that 
you have a significant increase in funding, a 126-percent 
increase in funding, from 2012 for the Science and Technology 
Directorate. Can you talk to us a little bit about that?
    Secretary Napolitano. Almost all of the increase in the 
funding is for the NBAF, which was determined by everybody who 
looked at the issue, including the Congress, that we needed a 
Level 4 ag facility, laboratory. Plum Island, where the 
existing one is--we are going to have to use it for a while, 
but in the end, it will not be our long-term facility, cannot 
be. There was a peer-reviewed competition for where the site 
should be. Kansas was the selected site. And so now we are in a 
partnership with the State of Kansas. We put in roughly $700 
million, they are putting in $300-plus million of State money 
to build the Level 4 facility.
    So the budget request enables us to begin to break ground 
on the main laboratory and to be on a construction schedule 
where we would be done by 2020.
    Senator Coburn. All right. The other thing that I would 
note is at least three reports were due to Congress on April 
10, 2013. I do not know if you are aware of that. This is the 
same time the President submitted his budget request, and we 
have not seen those reports. They cover the result of Science 
and Technology (S&T's) research and development for 2013, the 
amounts deobligated from projects from 2013, and the projected 
costs for the Plum Island Animal Disease Center.
    Are they coming? Do you have any idea? Or do you have to 
get back to me on it?
    Secretary Napolitano. I will get back to you on that, 
Senator.
    Senator Coburn. OK.
    It is hard for us to look at the 2014 request when we 
cannot get the reports that are due to us on 2013.
    Secretary Napolitano. I understand. I will----
    Senator Coburn. That is just fair.
    Secretary Napolitano. That is a fair question. I will look 
into it. As long as we are having a frank discussion, we will 
get those reports to you, but perhaps we could look 
comprehensively at all the reporting requirements of the 
Department.
    Senator Coburn. I agree. What is set up in legislation and 
mandated is not always things that will actually make you 
better or give us more knowledge. I understand that. You have 
my commitment to help you. If you see areas where you would 
like to see that changed, I think Senator Carper and I both 
would like to help you see that done.
    Secretary Napolitano. We will work together on it.
    Senator Coburn. OK. Thank you.
    Thank you, Mr. Chairman.
    Chairman Carper. In that spirit, before I turn to Senator 
McCaskill, one of the things that we could probably do that 
would help the Secretary and future Secretaries and their 
leadership team is somehow figure out how to have fewer 
Committees and Subcommittees with jurisdiction over different 
pieces of what you do. How many are there in all?
    Secretary Napolitano. It depends on how you count, but the 
number I use is 105.
    Chairman Carper. 105. That is a whole lot of folks to be 
answering to. Maybe as we do our top-to-bottom review of the 
Department we can actually figure out how to have a few less 
Committees and Subcommittees for you to report to. Senator 
McCaskill.
    Senator McCaskill. I could not agree more with Senator 
Carper on that. It is absolutely unconscionable. I do not know 
how you have time to do your job because it is a fine line 
between oversight and making you inefficient. And I think a lot 
of the duplication that we have on our end, it takes a lot of 
nerve for me to chew on you about duplication when we are 
having you answer to that many Committees.
    And I neglected in my first round of questioning to thank 
you on NBAF. There is an animal science corridor through the 
Midwest that is very important to a lot of preparedness that we 
need to have as we look to the future. And I know this was a 
tough call for you because of limited resources, and I know 
that my colleagues--and, frankly, it is in Kansas, and I am not 
really that fond of Kansas. [Laughter.]
    But, it is good for the Midwest, and it is good----
    Secretary Napolitano. It is good for the country.
    Senator McCaskill [continuing]. For our country, and so in 
this instance, I have been trying to fight as hard as I could 
for K State to get the funding for this important research 
facility, and I think they will be a great partner in this, and 
I think the entire region will be a great partner. And I 
realized I had gotten through and I was chewing on you and 
putting you on the spot, and I had not thanked you, and I 
wanted to stick around to do that.
    Thank you very much.
    Secretary Napolitano. I appreciate that. It was gracious. 
Thank you very much.
    Chairman Carper. And that was it, huh?
    Senator McCaskill. That was it.
    Chairman Carper. That is very nice.
    I have one more question, if you could bear with us, and 
then I am just going to ask you for a closing thought or two 
you would like to share with us. We always ask our witnesses to 
give an opening statement, and we come at you from a bunch of 
different directions. You may have a thought or two you would 
like to close with, and so I will give you a minute to think 
about that while I pose a question.
    It is a question that deals with fee increases, if I could. 
One of the elements in the proposal that Senator McCain and our 
seven colleagues have submitted is they are in favor of 
identifying force multipliers that we have talked about; ways 
to make us more effective on border security, and also come up 
with ways to help offset those costs. And there are offsets 
provided in the President's budget for raising some of the 
monies that are needed to fund some of the extra personnel and 
initiatives that will be used.
    Just make the case for those. Not everybody is in favor of 
it, raising revenues even for user fees that pay for stuff that 
we agree needs to be done, but just make the case for us, if 
you would.
    Secretary Napolitano. Well, I think the user fees we have 
requested are adjustments to existing users fees. We have had a 
immigration user fee. We have had an air security fee. Under 
the understanding that those who are using those particular 
services, the services of the land ports or the airports, what 
have you, they should pay a little bit of the cost as opposed 
to the taxpayer generally.
    The problem is the fees have not been adjusted, and there 
was no mechanism put in there for adjustments, automatic 
adjustments, and so they are woefully out of step with what 
they actually need to cover as a real user fee. And so what the 
President is requesting is that we make those adjustments.
    We do not, in the case of the aviation fee, do it all at 
once. We do it over a period of 5 years. And we are not talking 
large dollars but enough so that we can make the improvements 
we need, maintain the security we must have, and not further 
burden the taxpayer generally.
    Chairman Carper. Talk to us a little bit about the trade. 
The amount of trade we have with Mexico and with Canada, put 
that in perspective with the rest of the world. And I am not 
going to ask you to put dollar values on that, but just in 
relative terms, how important is it? And why are we so 
concerned about making sure that trade, whether it is Mexico or 
Canada, can move in an effective way?
    Secretary Napolitano. Canada and Mexico represent two of 
our top three trading partners, and that translates into 
hundreds of billions of dollars worth of trade annually and 
hundreds of thousands of jobs within the United States. 
Facilitating that trade, having things go smoothly and 
efficiently across borders is not only a security issue but it 
is an economic imperative.
    So working to keep lines shorter at the ports, figuring out 
ways where we can increase so-called trusted trader programs 
and implement the full beyond-the-border initiative with 
Canada----
    Chairman Carper. That is trader, spelled T-R-A-D-E-R, as 
opposed to another kind of traitor.
    Secretary Napolitano. Yes, exactly. Putting in the 
infrastructure for really a 21st Century border with Mexico. So 
these things really give meaning to the reality that these are 
two of our top three trading partners.
    Chairman Carper. Good. OK.
    Do you want to take a minute or two just to give us a 
closing thought? And then I will give a short benediction, and 
we will call it a day.
    Secretary Napolitano. No. I have enjoyed being with the 
Committee today. I think we have had a fair airing of some of 
the issues. I look forward to working with the Committee on 
these and others that come up.
    This Department has made tremendous advances over the past 
10 years, but we know we are still improving and looking for 
ways to improve, and we are committed to doing that.
    Chairman Carper. Good. I mentioned this before, I do not 
know if ever in your presence, but I certainly mentioned it at 
hearings here in the past. An international study was done a 
year or so ago. I heard about it on NPR driving to catch the 
train one morning from Delaware to D.C. And the study had been 
done asking people who work in countries all over the world, 
``What do you like about your job? '' And people had, as you 
might imagine, a lot of different answers. Some people liked 
being paid. Some people liked having benefits. They liked 
having health care, a pension, or vacation. Some people liked 
the folks they worked with, and that was their favorite thing. 
Some people just liked the surroundings in which they worked.
    But the most common answer, the most agreed-to answer among 
the people surveyed was this response: The thing they liked 
most about their work was they knew that what they were doing 
was important and they felt that they were making progress.
    Think about that. The work that they do is important and 
they felt like they were making progress.
    The work that you and your team at DHS is doing is 
incredibly important. We were reminded of that this week. And I 
think in many ways progress is being made, and that is a 
tribute to you and your predecessors and the folks that you 
lead.
    So as I said at the beginning of the hearing, everything I 
do I know I can do better, and to the extent there has been 
some criticism here, the intent is to be constructive and to 
try to figure out how we can work with you to enable you and us 
each to do our responsibilities better.
    With that having been said, the hearing record will remain 
open for, I am told, 15 days, until May 2, 5 p.m., for the 
submission of statements and questions for the record. We thank 
you for your time, for your service, and for being here today.
    With that, this hearing is adjourned.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0572.001

[GRAPHIC] [TIFF OMITTED] T0572.002

[GRAPHIC] [TIFF OMITTED] T0572.003

[GRAPHIC] [TIFF OMITTED] T0572.004

[GRAPHIC] [TIFF OMITTED] T0572.005

[GRAPHIC] [TIFF OMITTED] T0572.006

[GRAPHIC] [TIFF OMITTED] T0572.007

[GRAPHIC] [TIFF OMITTED] T0572.008

[GRAPHIC] [TIFF OMITTED] T0572.009

[GRAPHIC] [TIFF OMITTED] T0572.010

[GRAPHIC] [TIFF OMITTED] T0572.011

[GRAPHIC] [TIFF OMITTED] T0572.012

[GRAPHIC] [TIFF OMITTED] T0572.013

[GRAPHIC] [TIFF OMITTED] T0572.014

[GRAPHIC] [TIFF OMITTED] T0572.015

[GRAPHIC] [TIFF OMITTED] T0572.016

[GRAPHIC] [TIFF OMITTED] T0572.017

[GRAPHIC] [TIFF OMITTED] T0572.018

[GRAPHIC] [TIFF OMITTED] T0572.019

[GRAPHIC] [TIFF OMITTED] T0572.020

[GRAPHIC] [TIFF OMITTED] T0572.021

[GRAPHIC] [TIFF OMITTED] T0572.022

[GRAPHIC] [TIFF OMITTED] T0572.023

[GRAPHIC] [TIFF OMITTED] T0572.024

[GRAPHIC] [TIFF OMITTED] T0572.025

[GRAPHIC] [TIFF OMITTED] T0572.026

[GRAPHIC] [TIFF OMITTED] T0572.027

[GRAPHIC] [TIFF OMITTED] T0572.028

[GRAPHIC] [TIFF OMITTED] T0572.029

[GRAPHIC] [TIFF OMITTED] T0572.030

[GRAPHIC] [TIFF OMITTED] T0572.031

[GRAPHIC] [TIFF OMITTED] T0572.032

[GRAPHIC] [TIFF OMITTED] T0572.033

[GRAPHIC] [TIFF OMITTED] T0572.034

[GRAPHIC] [TIFF OMITTED] T0572.035

[GRAPHIC] [TIFF OMITTED] T0572.036

[GRAPHIC] [TIFF OMITTED] T0572.037

[GRAPHIC] [TIFF OMITTED] T0572.038

[GRAPHIC] [TIFF OMITTED] T0572.039

[GRAPHIC] [TIFF OMITTED] T0572.040

[GRAPHIC] [TIFF OMITTED] T0572.041

[GRAPHIC] [TIFF OMITTED] T0572.042

[GRAPHIC] [TIFF OMITTED] T0572.043

[GRAPHIC] [TIFF OMITTED] T0572.044

[GRAPHIC] [TIFF OMITTED] T0572.045

[GRAPHIC] [TIFF OMITTED] T0572.046

[GRAPHIC] [TIFF OMITTED] T0572.047

[GRAPHIC] [TIFF OMITTED] T0572.048

[GRAPHIC] [TIFF OMITTED] T0572.049

[GRAPHIC] [TIFF OMITTED] T0572.050

[GRAPHIC] [TIFF OMITTED] T0572.051

[GRAPHIC] [TIFF OMITTED] T0572.052

[GRAPHIC] [TIFF OMITTED] T0572.053

[GRAPHIC] [TIFF OMITTED] T0572.054

[GRAPHIC] [TIFF OMITTED] T0572.055

[GRAPHIC] [TIFF OMITTED] T0572.056

[GRAPHIC] [TIFF OMITTED] T0572.057

[GRAPHIC] [TIFF OMITTED] T0572.058

[GRAPHIC] [TIFF OMITTED] T0572.059

[GRAPHIC] [TIFF OMITTED] T0572.060

[GRAPHIC] [TIFF OMITTED] T0572.061

[GRAPHIC] [TIFF OMITTED] T0572.062

[GRAPHIC] [TIFF OMITTED] T0572.063

[GRAPHIC] [TIFF OMITTED] T0572.064

[GRAPHIC] [TIFF OMITTED] T0572.065

[GRAPHIC] [TIFF OMITTED] T0572.066

[GRAPHIC] [TIFF OMITTED] T0572.067

[GRAPHIC] [TIFF OMITTED] T0572.068

[GRAPHIC] [TIFF OMITTED] T0572.069

[GRAPHIC] [TIFF OMITTED] T0572.070

[GRAPHIC] [TIFF OMITTED] T0572.071

[GRAPHIC] [TIFF OMITTED] T0572.072

[GRAPHIC] [TIFF OMITTED] T0572.073

[GRAPHIC] [TIFF OMITTED] T0572.074

[GRAPHIC] [TIFF OMITTED] T0572.075

[GRAPHIC] [TIFF OMITTED] T0572.076

[GRAPHIC] [TIFF OMITTED] T0572.077

[GRAPHIC] [TIFF OMITTED] T0572.078

[GRAPHIC] [TIFF OMITTED] T0572.079

[GRAPHIC] [TIFF OMITTED] T0572.080

[GRAPHIC] [TIFF OMITTED] T0572.081

[GRAPHIC] [TIFF OMITTED] T0572.082

[GRAPHIC] [TIFF OMITTED] T0572.083

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
